DOE/IG-0522




        AUDIT              THE PLUTONIUM IMMOBILIZATION PLANT
       REPORT                  AT THE SAVANNAH RIVER SITE




                                             SEPTEMBER 2001




       U.S. DEPARTMENT OF ENERGY
      OFFICE OF INSPECTOR GENERAL
        OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585


                               September 11, 2001




MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Plutonium
                          Immobilization Plant at the Savannah River Site"


BACKGROUND

In September 2000, the United States and the Russian Federation entered into an
agreement stipulating that each country would irreversibly transform 34 metric tons of
weapons-grade plutonium into forms that cannot be used for weapons purposes. As part
of the United States' commitment, the Department of Energy has developed plans to
dispose of 8.4 metric tons of the plutonium and convert 25.6 metric tons into mixed oxide
reactor fuel. Both operations are to take place at the Savannah River Site (Site).

In developing a process to dispose of the 8.4 metric tons of weapons-grade plutonium
covered by the agreement, as well as additional "weapons-usable" plutonium, the
Department planned to immobilize the material by constructing a Plutonium
Immobilization Plant (Plant) at the Site. The Plant is to accept plutonium and plutonium
oxides and, through a ceramic immobilization process, convert the plutonium into
mineral-like forms. Subsequently, this material is to be encapsulated within a canister of
high-level radioactive glass. The estimated life-cycle cost of the immobilization project
is about $1.5 billion in constant Fiscal Year 2001 dollars.

Except for limited continuing research and development activities, the Department has
suspended work on the Plant to provide additional funds for higher priority projects. The
Governor of South Carolina announced that, based on the Department's actions, he was
concerned that the strategy for disposing of plutonium being imported to the Site is being
abandoned and that the Site could become a permanent plutonium dumping ground. The
Department has stated that its overall strategy for disposing of surplus plutonium has not
changed; however, it acknowledged that the program is under review, aspects of which
are under the purview of the National Security Council.

The objective of this audit was to determine whether the proposed Plutonium
Immobilization Plant duplicates a capability that already exists at the Savannah River
Site.
                                            2



RESULTS OF AUDIT

The audit disclosed that the proposed Plant does not duplicate existing capabilities
already operating at the Site. However, we determined that the Plant potentially overlaps
with the capability of the Site's FB Line Facility (FB Line), and could duplicate the
capability of another plant, the Treatment and Storage Facility (TSF), which is scheduled
to be operational at the Site in September 2008. We noted that the Department's Office
of Fissile Materials Disposition had not considered the FB Line or the TSF as alternatives
for disposing of excess plutonium. Our analysis suggests that there could be very
significant savings if the Department used existing or planned Site facilities, rather than
building the Immobilization Plant. In fact, we concluded that the overall cost savings
associated with the alternative approach could be in excess of $650 million. Further, the
FB Line and TSF may provide the Department with other alternatives to dispose of
surplus plutonium and to satisfy the United States' commitment as part of the agreement
with the Russian Federation.

MANAGEMENT REACTION

Management concurred with the recommendation, but did not agree with the magnitude
of the estimated cost savings presented in the report. Management contended that the
proposed alternatives have not been developed to the stage that meaningful cost estimates
can be established. It acknowledged, however, that the Department is now analyzing the
FB Line as part of an ongoing assessment of the use of Site facilities for plutonium
disposition. Management intends to complete this assessment in January 2002. Finally,
we were told that a utilization study of the TSF will be started in October 2002 and
completed about six months later.

Management's commitment to analyze the FB Line and the proposed TSF is responsive to
our recommendation. We recognize that modifications to the FB Line and the TSF are
necessary to accomplish plutonium disposition and that the exact cost savings associated
with utilizing either of these facilities cannot be determined at this time. However, our
analyses, based on the cost estimates available at the time of our audit, indicate that the
FB Line and TSF offer significant potential cost savings when compared to constructing
and operating the PIP.

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Acting Director, Office of Fissile Materials Disposition
THE PLUTONIUM IMMOBILIZATION PLANT AT THE SAVANNAH
RIVER SITE

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 1


                Alternative Facilities Should Be Evaluated

                Details of Finding .......................................................................3

                Recommendation and Comments .............................................6


                Appendix

                Scope and Methodology.............................................................7
OVERVIEW

INTRODUCTION AND   In September 2000, the United States and the Russian Federation
OBJECTIVE          entered into an agreement stipulating that each country will irreversibly
                   transform 34 metric tons of weapons-grade plutonium into forms
                   unusable for weapons. The agreement states that disposition of the
                   plutonium shall be by irradiation as fuel, immobilization, or any other
                   methods approved by both countries. The agreement sets 2007 as the
                   target to begin the disposition process. To meet the United States'
                   commitment, the Department of Energy (Department) plans to dispose
                   of 8.4 metric tons and convert 25.6 metric tons of weapons-grade
                   plutonium into nuclear reactor fuel. The majority of the plutonium will
                   be shipped to Savannah River from other Department facilities.

                   To dispose of the 8.4 metric tons of weapons-grade plutonium, the
                   Department plans to construct a Plutonium Immobilization Plant (PIP)
                   at the Savannah River Site. The PIP will accept plutonium and
                   plutonium oxides and, through a ceramic immobilization process,
                   convert the plutonium into mineral-like forms that will subsequently be
                   encapsulated within a large canister of high-level radioactive glass. The
                   PIP will have the capacity to process 13 metric tons of weapons-usable
                   plutonium, including 8.4 metric tons of weapons grade plutonium.
                   Based on the plant's capacity of 13 metric tons, the Department
                   estimated the life-cycle cost of the project to be about $1.5 billion in
                   constant FY 2001 dollars. As of March 30, 2001, the Department had
                   spent $101 million on the project. However, except for two research
                   and development activities in FY 2002, the Department has suspended
                   funding on the project.

                   The objective of this audit was to determine whether the proposed PIP
                   duplicates a capability that already exists at the Savannah River Site.

CONCLUSIONS AND    The proposed PIP does not duplicate a capability that exists at the
OBSERVATIONS       Savannah River Site. However, it potentially overlaps with the
                   capability of the site's FB Line Facility (FB Line), and could duplicate
                   the capability of the planned Treatment and Storage Facility (TSF),
                   scheduled to be operational at the site in September 2008. This
                   occurred because the Department's Office of Fissile Materials
                   Disposition did not consider the FB Line or TSF as alternatives for
                   disposing of excess plutonium. The Department could potentially save
                   at least $654 million if existing or planned facilities are used, rather
                   than building the PIP.




Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         The Office of Inspector General identified a similar situation at the
         Savannah River Site in May 1994. Report DOE/IG-0349, Audit of the
         Uranium Solidification Facility at the Savannah River Site, concluded
         that the Department continued to construct the Uranium Solidification
         Facility even though its need for processing liquid uranyl nitrate had
         significantly diminished. The audit identified more economical
         alternatives for processing existing quantities of liquid uranyl nitrate at
         the Savannah River Site. To its credit, the Department concurred with
         the audit finding and recommendation, and cancelled the construction
         project.

         This audit identified significant issues that management should consider
         when preparing its year-end assurance memorandum on internal
         controls.




                                                         Signed
                                                Office of Inspector General




Page 2                                            Conclusions and Observations
ALTERNATIVE FACILITIES SHOULD BE EVALUATED

Alternatives for       The proposed PIP potentially overlaps with the capability of the FB
Disposing of           Line, and could duplicate the capability of the TSF, which is scheduled
Plutonium              to be operational in September 2008. According to Westinghouse
                       Savannah River Company (Westinghouse) management, the FB Line
                       could be modified to convert weapons-grade plutonium into a form that
                       could be used to make fuel for nuclear reactors. Westinghouse has used
                       the FB Line to convert scrap plutonium into a solid form by
                       concentrating and purifying plutonium nitrate solutions from the F
                       Canyon and reducing the plutonium to metal form. Therefore, the FB
                       Line could be available for other uses in FY 2002, when its current
                       mission is completed.

                       The TSF is another potential alternative for disposing of weapons-grade
                       plutonium. Westinghouse is designing the TSF to use melt-and-dilute
                       technology for the disposal of spent nuclear fuel, beginning in
                       September 2008. The Savannah River Site Manager requested that
                       Westinghouse evaluate whether nuclear materials other than aluminum-
                       clad spent nuclear fuel should be considered for disposal using the melt-
                       and-dilute process. Westinghouse completed its evaluation in February
                       2000, concluding that the melt-and-dilute process might be an
                       alternative for the disposal of excess plutonium. Westinghouse
                       recommended that the Department proceed with a study to substantiate
                       the viability of disposing of other materials. The study, which would
                       cost about $300,000, would document whether plutonium and other
                       metals were candidates for the melt-and-dilute process. However, the
                       study has not been performed due to a lack of funds.

Department's Cost      Department of Energy Order 430.1.A states that the Department, in
Objective Was to       partnership with its contractors, shall acquire physical assets in a safe
Immobilize Plutonium   and cost-effective manner to meet the Department's mission. While the
Cost-Effectively       principal objective is nonproliferation, the Department's cost objective
                       for the immobilization project, as stated in the Design-Only Conceptual
                       Design Report Plutonium Immobilization Plant, was to produce an
                       immobilized form of plutonium that would be cost-effective, utilizing
                       existing facilities and capabilities to the maximum extent practical.

                       In accordance with the Government Performance and Results Act of
                       1993, the Department has established performance measures for
                       disposing of excess plutonium through immobilization. The measures
                       involve the elimination of weapons useable plutonium within
                       approximately 20 years by immobilization and irradiation as fuel.




Page 3                                                                      Details of Finding
Alternatives Were Not          The Department's Office of Fissile Materials Disposition did not
Evaluated                      consider the capability of using the FB Line or the TSF to dispose of
                               excess plutonium. In 1995, the Department evaluated 37 disposition
                               options for plutonium. However, neither the FB Line nor the TSF
                               was considered. The FB Line was not considered because of
                               nonproliferation policy issues that have since been reassessed. The
                               TSF was not considered because it was still in its pre-conceptual
                               phase at the time of the study.

                               Analyzing these alternatives now will not delay the disposition of the
                               plutonium because the Department has suspended funding for the
                               PIP. In the interim, the Office of Defense Nuclear Nonproliferation
                               has asked Westinghouse to reassess the use of Savannah River Site's
                               Building 221-F for plutonium disposition because of its potential to
                               reduce disposition costs. Building 221-F, one of the 37 alternatives
                               that was previously evaluated by the Department, was found not to
                               be cost-effective when compared to the life-cycle cost of the PIP.

Using Existing or Planned      The Department could potentially save at least $654 million by
Capabilities Could Result In   modifying and operating the FB Line or the TSF to dispose of
Savings                        surplus plutonium, rather than constructing and operating the PIP.
                               The following chart summarizes our estimates of the cost savings.
                               As the implementation of disposition requirements for plutonium are
                               examined in more detail, the cost estimates could vary significantly
                               from those presented here.


                                                         POTENTIAL SAVINGS
                                                          (Millions of Dollars)
                                                                                   Alternatives
                                                  Cost                     PIP    FB Line     TSF
                                Facilities Cost                           $811      $104      $200

                                Operations Cost                            623       676       200

                                Life Cycle Cost to Dispose of           $1,434      $780      $400
                                 Plutonium

                                Savings (Alternatives Compared to                   $654    $1,034
                                PIP)



Page 4                                                                            Details of Finding
                                           PIP

         The Department's cost estimate to build the PIP is $912 according to
         a March 30, 2001 draft report to Congress, of which $101 million
         has already been spent. Thus, as shown in the previous chart, the
         cost to complete the facility is $811 million. Operating costs to
         dispose of the plutonium in the PIP, which include decontamination
         and decommissioning costs, are estimated to be about $623 million.

                                         FB Line

         The cost to modify the FB Line for plutonium disposition is
         estimated to be about $104 million. This is based on the
         Department's Design-Only Conceptual Design Report for the PIP,
         dated September 2000. The report contained $74 million for site
         improvements and support facilities, and $30 million in process
         facility costs for a new receipt-and-storage facility, modification to
         the Defense Waste Processing Facility, and a security upgrade.

         Operating costs to dispose of plutonium in the FB Line are estimated
         to be $676 million. Westinghouse management stated that the
         operating costs of the FB Line for the first 6 months of FY 2001
         were about $26 million, or about $52 million annualized. Also,
         management stated that the FB Line could process about one metric
         ton of plutonium per year. Thus, disposal of 13 metric tons,
         including the 8.4 metric tons of weapons-grade plutonium in the
         agreement with the Russian Federation, would take about 13 years.

                                           TSF

         Westinghouse estimated that it would cost an additional $200 million
         to modify the TSF to process 13 tons of excess plutonium.
         Currently, the design and construction of the TSF is estimated to cost
         about $300 million. We estimated the operating costs to dispose of
         plutonium in the TSF to be about $200 million, based on annual
         operating costs of $20 million for 10 years, beginning by September
         2008.

         As previously stated, the cost estimates to modify the FB Line and
         TSF to dispose of plutonium could change significantly as the
         implementation of plutonium disposition requirements are further
         examined. Nonetheless, our analyses of the estimates show that the
         Department should evaluate the FB Line and TSF to ensure that
         plutonium disposition is cost-effective and utilizes existing facilities
         and capabilities to the maximum extent practical.

Page 5                                     Recommendation and Comments
RECOMMENDATION        We recommend that the Acting Director, Office of Fissile Materials
                      Disposition, analyze the FB Line and the proposed TSF as
                      alternatives to constructing the PIP.

MANAGEMENT REACTION   Management concurred with the recommendation, but did not agree
                      with the magnitude of the estimated cost savings because the
                      proposed alternatives have not been developed to the stage that
                      meaningful cost estimates can be established. Management, did
                      note, however, that it is now analyzing the FB Line as part of an
                      ongoing assessment of the use of Savannah River Site facilities for
                      plutonium disposition. Management intends to complete this
                      assessment in January 2002. The TSF utilization study will be
                      started in October 2002 and completed about six months later.

AUDITOR COMMENTS      Management's commitment to analyze the FB Line and the proposed
                      TSF is responsive to our recommendation. We acknowledge that
                      modifications to the FB Line and the TSF are necessary to
                      accomplish plutonium disposition and that the exact cost savings
                      associated with utilizing either of these facilities cannot be
                      determined at this time. However, our analyses, based on the cost
                      estimates available at the time of our review, indicate that the FB
                      Line and TSF offer significant potential cost savings when compared
                      to constructing and operating the PIP. More importantly, these
                      facilities may provide the Department with other alternatives to
                      dispose of surplus plutonium and satisfy the United States'
                      commitment to the Russian Federation.




Page 6                                                                 Details of Finding
Appendix

SCOPE         The audit was performed from November 28, 2000, to August 13, 2001,
              at the Savannah River Site near Aiken, South Carolina and
              Headquarters, Washington, D.C. The audit covered a review of the
              Department's planned Plutonium Immobilization Plant (PIP).

METHODOLOGY   To accomplish the audit objective, we:

                    •   Reviewed the United States-Russian Federation Agreement
                        concerning the disposition of plutonium designated as no
                        longer required for defense purposes;

                    •   Reviewed the following documents pertaining to the PIP:

                            -   Department of Energy Record of Decision for the
                                Storage and Disposition of Weapons-Useable Fissile
                                Material Final Programmatic Environmental Impact
                                Statement;
                            -   Design-only conceptual design reports;
                            -   Development and testing baseline and progress
                                monthly reports;
                            -   Integrated technology development plans; and,
                            -   Various cost studies performed for the Department.

                    •   Reviewed the evaluation of feeds for the melt-and-dilute
                        process performed by Westinghouse as it relates to the
                        planned Treatment and Storage Facility;

                    •   Interviewed Westinghouse and Department managers
                        regarding the proposed PIP and the use of the FB Line and
                        Building 221-F for the disposition of excess plutonium; and,

                    •   Estimated the savings associated with using existing or
                        proposed facilities rather than building the PIP.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental and contractor policies,
              procedures, and performance measures related to the management and
              control of the plan and design for the PIP. Because our review was
              limited, it would not necessarily have disclosed all internal control



Page 7                                                     Scope and Methodology
         of the plan and design for the PIP. Because our review was limited, it
         would not necessarily have disclosed all internal control deficiencies
         that may have existed at the time of our audit. We did not rely upon
         computer-generated data for the purposes of this audit.

         We held an exit conference with the Director, Materials and
         Immobilization Group, Office of Fissile Materials Disposition, on
         August 16, 2001.




Page 8                                                Scope and Methodology
                                                                               IG Report No. :DOE/IG-0522

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
